fSniteti States; Court of appeals;
for tlje Jftftf) Circuit
No. 19-40401

United States of America,
Plaintiff— Appellee■>
versus
Enrique E. Quintana,
Defendant — Appellant.

Appeal from the United States District Court
for the Eastern District of Texas
USDC No: 6:18-CV-191

ON PETITION FOR REHEARING
Before Higginbotham, Southwick, and Willett, Circuit Judges.
PER CURIAM:
IT IS ORDERED that the petition for rehearing is DENIED.

ENTERED FOR THE COURT:
/ s/ Leslie H. Southwick
UNITED STATES CIRCUIT JUDGE

^7

Case: 19-40401

Document: 00515425671

Page: 1

Date Filed: 05/22/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

FILED

No. 19-40401

March 30, 2020

D.C. Docket No. 6:18-CV-191

Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
ENRIQUE E. QUINTANA,
Defendant - Appellant
Appeal from the United States District Court for the
Eastern District of Texas
Before HIGGINBOTHAM, SOUTHWICK, and WILLETT, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal.
It is ordered and adjudged that the appeal is dismissed.

Certified as a true copy and issued
as the mandate on May 22, 2020
Attest:

W. CcMaOl

Clerk, U.S. Court of Appeals, Fifth Circuit

I

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-40401

FILED
March 30, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellant
v.

ENRIQUE E. QUINTANA,
Defendant-Appellee

Appeal from the United States District Court
for the Eastern District of Texas
USDCNo. 6:18-CV-191

Before HIGGINBOTHAM, SOUTHWICK, and WILLETT, Circuit Judges.
PER CURIAM:*.
Enrique E. Quintana, federal prisoner # 15321-035, pleaded guilty to
three counts of production of child pornography, and the district court
sentenced him to a total term of imprisonment of 708 months. Quintana seeks
a certificate of appealability (COA) to appeal the denial of his 28 U.S.C. § 2255
motion to vacate, correct, or set aside his sentence. He argues that reasonable
jurists could debate the district court’s resolution of his claims of actual
innocence, ineffective assistance of counsel related to prosecutorial misconduct
* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

No. 19-40401
and voluntariness of his plea, and a substantively unreasonable sentence.
Quintana claims that the district court erred in determining that his guilty
plea waived his challenges to nonjurisdictional defects in the proceedings and
argues that it should have considered the merits of all of his claims. He asserts
that the district court also erred by not considering evidence related to his
Fourth Amendment claim.
To obtain a COA as to the district court’s denial of his § 2255 motion,
Quintana must make “a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). To satisfy this standard, the movant must show
“that jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell,
537 U.S. 322, 327 (2003). Quintana has not made the requisite showing. See
id.
In addition, Quintana asserts that the district court should have held an
evidentiary hearing on his § 2255 motion. However, he failed to brief the issue
and it is therefore abandoned. Hughes v. Johnson, 191 F.3d 607, 613 (5th Cir.
1999); Yohey v. Collins, 985 F.2d 222, 224-25 (5th Cir. 1993).
Quintana’s motion for a COA is DENIED. A COA is not required to
appeal the denial of an evidentiary hearing in a federal habeas proceeding. See
Norman v. Stephens, 817 F.3d 226, 234 (5th Cir. 2016) (§ 2254 case).
Quintana’s request for a COA on the evidentiary hearing issue is DENIED as
unnecessary and the appeal is DISMISSED as to that claim.

2

1

Case 6:18-cv-00191-TH-JDL Document 20 Filed 04/04/19 Page 1 of 2 PagelD #: 333

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
ENRIQUE E. QUINTANA, #15321-035

§

VS.

§

UNITED STATES OF AMERICA

§

•

CIVIL ACTION NO. 6:18cvl91
CRIMNO. 6:1 lcr25

ORDER OF DISMISSAL
Movant Enrique Quintana, a federal prisoner confined at the United States Penitentiary in
Tucson, Arizona, brings this motion to vacate, set aside, or correct his federal sentence pursuant
to 28 U.S.C. § 2255. The motion was referred to the United States Magistrate Judge, the Honorable
Judge John D. Love, for findings of fact, conclusions of law, and recommendations for disposition
of the case.
The court has conducted a careful de novo review of record and the Magistrate Judge’s
proposed findings and recommendations. See 28 U.S.C. §636(b)(l) (District Judge shall “make a
de novo determination of those portions of the report or specified proposed findings or
recommendations to which objection is made.”). Upon such de novo review, the court has
determined that the Report of the United States Magistrate Judge is correct and Movant’s
objections are without merit. Accordingly, it is
ORDERED that Movant’s objections, (Dkt. #18), are overruled and the Report of the
Magistrate Judge, (Dkt. #9), is ADOPTED as the opinion of the District Court. It is also
ORDERED that the above-styled civil action is DISMISSED with prejudice. Moreover,
it is
ORDERED that Movant Quintana is DENIED a certificate of appealability sua sponte.
Finally, it is
1

Case 6:18-cv-00191-TH-JDL Document 21 Filed 04/04/19 Page 1 of 1 PagelD #: 335

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
ENRIQUE E. QUINTANA, #15321-035

§

VS.

§

UNITED STATES OF AMERICA

§

CIVIL ACTION NO. 6:18cvl91
CRIM NO. 6:llcr25

FINAL JUDGMENT
The court having considered Movant’s case and rendered its decision by opinion issued
this same date, it is hereby ORDERED that Movant’s case is DISMISSED with prejudice.
SIGNED this the 4 day of April, 2019.

Thad Heartfield
'
United States District Judge

1

Case 6:18-cv-00191-TH-JDL Document 20 Filed 04/04/19 Page 2 of 2 PagelD #: 334

ORDERED that any and all motions which may be pending in this civil action are hereby
DENIED.
SIGNED this the4 day of April, 2019.

Thad Heartfield
'
United States District Judge

2

